                                                                                 SECURITY
                                               Office of Inspector General
                                           Atlanta Field Office-Audit Division
                                                3003 Chamblee Tucker Rd
                                                    Atlanta, GA 30341


                                                           February 3,2004

    MORANDUM


TO:                      Kenneth L. Horak
                         Acting Regional Director, FEMA Region I

FROM:
                         Field Office Director

SUBJECT:                 Town of Lincoln, Vermont
                         FEMA Disaster No. 1228-DR-VT
                         Audit Report No. DA- 11-04


The Office of Inspector General (OIG) audited public assistance funds awarded to the
Town of Lincoln, Vermont. The objective of the audit was to determine whether the
Town accounted for and expended FEMA funds according to federal regulations and
FEMA guidelines.

The Town received an award of $1.6 million from the Vermont Emergency Management
Agency, a FEMA grantee, to repair facilities damaged as a result of severe flooding in
June 1998. The award provided 75 percent FEMA funding for 6 large projects and 39
small projects'.

The audit covered the period June 1998 to February 2002. During this period, the Town
claimed $1,574,138 (see Exhibit A) and received $1,180,604 of FEMA funds under the
projects.

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted governmental auditing standards. The
audit included tests of the Town's accounting records, a judgmental sample of'
expenditures, and other auditing procedures considered necessary under the
circumstances.


1
 According to FEMA regulations, a large project costs $47,100 or more and small projects cost less than
$47,100.
               m
                                 RESULTS OF AUDIT 


The Town's claim included questioned costs of $18,382 (FEMA share $13,787) resulting
from unsupported and duplicate charges.

A. Unsupported Charges. The Town's claim under Project 35 105 contained $1 1,662 of
   unsupported contract equipment charges. The Town claimed payments of $86,629
   made to a contractor for the rental of various pieces of equipment to repair the
   Town's roads. To support these rental charges, the contractor provided the Town
   with invoices and daily activity reports that listed the name of equipment operators
   and the hours the various pieces of equipment were used. However, the OIG
   determined that the contractor's daily activity reports supported only $74,967 of
   equipment costs, or $1 1,662 less than the amount claimed. Accordingly, the OIG
   questions the difference of $11,662 (see Exhibit B).

B. Duplicate Charges. The Town was awarded $6,720 under small Project 25766 to
   repair a segment of the French Settlement Road. However, the Town actually
   completed the repair work for this road under large Project 35 105. As a result, the
   Town was reimbursed twice for these costs, once under the small project and again
   under the large project. Accordingly, the OIG questions the $6,720 awarded and
   claimed under small Project 25766.

                                 RECOMMENDATION

The OIG recommends that the Regional Director, in coordination with the grantee,
disallow the $18,382 of questioned costs.


          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

The results of the audit were discussed with grantee officials on January 29,2004, and
with FEMA and Town officials on January 22,2004. Town officials concurred with the
findings. However, with regards to Finding A, Town officials indicated that they would
contact the contractor in an attempt to support the questioned equipment rental charges.

Please advise the Atlanta Field Office-Audit Division by April 03,2004, of the actions
taken to implement the OIG recommendation. Shoul you have any questions
concerning this report, please contact George Peoples or me at (770) 220-5242.
                                                            Exhibit A

                        Town of Lincoln, Vermont
                     FEMA Disaster No. 1228-DR-VT
                  Schedule of Claimed and Questioned Cost

                              Large Proiects

                       Amount                  Amount       Amount
Proiect                Awarded                 Claimed      Questioned

35 104
35105
35106
351 19
35117
25761
Sub-Total


                               Small Proiects

25766
Other small projects
Sub-Total

Total
                                                          Exhibit B

                      Town of Lincoln, Vermont
                   FEMA Disaster No. 1228-DR-VT
              Schedule of Unsupported Equipment Charges

Invoice                     Hours          Hours            Cost
 Date     Equipment Item   Claimed       Unsupported      Questioned

8/16/98   Backhoe
8/16/98   Stone Truck
8/16/98   Dirt Truck
8/16/98   Gravel Truck
8/23/98   Stone Truck
8/23/98   Dirt Truck
8/23/98   Gravel Truck
9113/98   Stone Truck
9/13/98   Gravel Truck
Total
